OFF
  FICE OF IN
           NSPE
              ECTO
                 OR GE
                     ENER
                        RAL


AUDIT OF PHAS   SE IIII OF
                         F
USAAID//INDIIA’S INNOOVA ATION
                             NS
IN FAMILY PLAN   NNIN
                    NG
SERVICCES PRO   OJECCT

         ORT NO
AUDIT REPO      O. 5-386
                       6-11-010-P
AUGU
   UST 25, 2011




MANIILA, PH
          HILIPPIN
                 NES
Office of Inspector Geeneral



August 25, 2011

     ANDUM
MEMORA

TO:       	          USAID
                         D/India Actin
                                     ng Mission Director, Elizzabeth Warfield

FROM: 	              Regio
                         onal Inspecto
                                     or General/M
                                                Manila, Bruce
                                                            e N. Boyer /s/

SUBJEC
     CT: 	           Audit of Phase III of USAID/In
                                                  ndia’s Innova
                                                              ations in Fam
                                                                          mily Planning Services
                     Projec
                          ct (Report Number 5-386 6-11-010-P))

This memmorandum transmits ouur final report on the su
                                                     ubject audit. In finalizin
                                                                              ng the reporrt, we
        ed your comments on the draft audit reportt and includ
considere                                                         ded the com mments (wiithout
attachme
       ents) in Appe
                   endix II.

The audiit report conntains six rec
                                  commendations to assisst the missio   on in improvving its overrsight
and man  nagement off Phase III of the Innova ations in Family Plannin ng Services Project. On the
basis of the informattion providedd by the misssion in resp
                                                          ponse to the e draft reporrt, we determmined
that man nagement de  ecisions havve been reaached on Re   ecommenda   ations 1, 2, 3, 4, and 6, and
final actio
          on has beenn taken on Recommendation 5. Ple     ease provide e the Audit Performance   e and
Complian  nce Division of USAID’s Office of the
                                              e Chief Finaancial Officerr with eviden
                                                                                    nce of final action
to close the open reccommendations.

I want to thank you and your sta
                               aff for the co
                                            ooperation and courtesie
                                                                   es extended to us during
                                                                                          g this
audit.




U.S. Agency for International Development
                        th
PNB Financiaal Center, 8 Floorr
Roxas Blvd, 1308 Pasay City
Metro Manila
           a, Philippines
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 5 


     Project Lagged Behind in Achieving Benchmark Activities ......................................... 5 


     Significant Amounts of Project Funds Remained Unused .......................................... 7 


     Methodology Used to Value Benchmarks Lacked Accuracy....................................... 9 


     Project Lacked Transition/Sustainability Plan for 

       Family Planning Activities ...................................................................................... 11 


Evaluation of Management Comments....................................................................... 14 


Appendix I – Scope and Methodology ....................................................................... 17 


Appendix II – Management Comments ...................................................................... 19 





Abbreviations

The following abbreviations appear in this report:

ADS                  Automated Directives System 

IFPS III             Innovations in Family Planning Services Project, Phase III 

JHS                  Jharkhand Health Society 

NGO                  nongovernmental organization

NRHM                 National Rural Health Mission

SIFPSA               State Innovations in Family Planning Services Project Agency 

UKHFWS               Uttarakhand Health and Family Welfare Society 

SUMMARY OF RESULTS 

India is the second most populous country in the world, inhabited by over 1.2 billion people.
Nearly 70,000 children are born daily, leading to some 25 million births yearly.1 The
Government of India has been paying close attention to family planning issues and partnered
with USAID in 1992 to help revitalize the country’s family planning program.

Specifically, in 1992, USAID and the Government of India signed a bilateral grant agreement to
implement the Innovations in Family Planning Services (IFPS) Project through performance-
based disbursements involving direct financial assistance to state government entities. The
project was originally designed to help the government revitalize family planning services in one
of India’s most populous states—Uttar Pradesh. The project has since expanded its geographic
focus to include two neighboring states, Uttarakhand and Jharkhand, and is currently in its third
phase of implementation (IFPS III), which started in April 2009 and is scheduled to end in March
2012. IFPS III works to expand and improve family planning and reproductive and child health
services in these three states. The audit focused primarily on achievements under IFPS III.

From the start, IFPS has had three main objectives. First, the project intends to increase
access to family planning services by strengthening service delivery by both governmental and
nongovernmental providers. Access is to be expanded through hospitals, clinics, and
community-based distribution and contraceptive social marketing so that services become
available to a large proportion of clients living in hard-to-reach and poor urban areas. Second,
the project intends to improve the quality of family planning services by expanding the choice of
contraceptive methods, improving the technical capacity of personnel, improving contraceptive
logistics, and ensuring informed choices through effective counseling. Third, the project intends
to promote family planning by broadening support among leadership groups, increasing the
public’s understanding of the health and welfare benefits of family planning, creating a better
image of the project, and providing information on the availability of services and methods.

The grant agreement for the overall IFPS project specified the contributions of the two partners
and the funding mechanism. The agreement called for USAID to contribute $325 million over
the life of the project and for the Indian Government to establish an autonomous society in the
state of Uttar Pradesh to carry out implementation and management functions. To that end, the
Government of India established the State Innovations in Family Planning Services Project
Agency (SIFPSA). When the project expanded its geographic focus, the government
established two additional state societies, Uttarakhand Health and Family Welfare Society
(UKHFWS) in 2004 and the Jharkhand Health Society (JHS) in 2006. USAID/India funds these
state societies through a performance-based disbursement mechanism. Under this mechanism,
USAID, the Indian Government, the state societies, and the state governments were to establish
and agree on verifiable indicators—called benchmarks—for achieving certain project activities.
The state societies are responsible for implementing the activities outlined in the benchmarks.
A dollar value is then established, representing the amount USAID is to pay to the Indian
Government on successful completion of the benchmark activities.              Thus, under this
mechanism, USAID pays only on achievement of the activities outlined in the benchmarks.
IFPS III had an estimated USAID life-of-project contribution of up to $46.2 million for these
performance-based disbursement activities.


1
    U.S. Census Bureau, International Database, estimate for 2011.

                                                                                               1
In addition to the grant agreement with the Government of India, USAID signed a contract with
Constella Futures International, LLC (now Futures Group International, LLC), in 2005 to provide
technical assistance to the state societies and at the national level. The contract currently runs
through December 31, 2011. Table 1 shows funding as of March 31, 2011, for the grant
agreement and the technical assistance contract.

                Table 1. Financial Status of the Project as of March 31, 2011
                                          ($ million)

                                            Life-of-Project
              Mechanism                                           Obligated         Expended
                                               Estimate

Performance-based disbursements                   46.2               11.9               5.5

Technical assistance contract                     24.0               10.7               5.1

     Total                                        70.2               22.6              10.6

During the course of IFPS implementation, dramatic economic changes have taken place in
India. The country’s growing economic strength has allowed for the creation in 2005 of the
National Rural Health Mission (NRHM), a government program designed to make needed
improvements in the basic health-care delivery system. The goal of NRHM—similar to that of
IFPS—is to improve the availability of and access to quality health care, especially for those
residing in rural areas, the poor, and women and children. NRHM planned to spend $8 billion
throughout the country over 7 years beginning in 2005. IFPS III is working in conjunction with
NRHM to provide technical assistance to carry on family planning services.

The objective of the audit was to determine whether USAID/India’s IFPS III was achieving its
main goal of strengthening health systems to allow for the delivery of quality family planning and
reproductive health services.

The audit found that the project had made little progress in strengthening health systems to
allow for the delivery of quality family planning and reproductive health services. Specifically,
the audit disclosed the following problems:

•	 The project lagged behind in achieving its benchmarks, with over 70 percent of benchmark
   activities either cancelled (41 percent) or not achieved (31 percent) (page 5). In addition, one
   benchmark valued at $208,150 to promote a voucher scheme activity in Uttarakhand for below
   poverty line clients had yet to be achieved because of a similar, competing state initiated
   program (page 6).

•	 Significant amounts of project funds remained unused, with only $22.6 million out of $70.2
   million obligated and a pipeline of $12 million that may not be spent before the project ends
   in March 2012 (page 7).

•	 The methodology used to value benchmarks lacked accuracy, with the result that SIFPSA
   has accumulated approximately $40.1 million in savings since the project began in 1992.
   The audit also found an error of $73,860 in a benchmark valuation and various
   inconsistences in the application of management fees (page 9).

•	 Although discussions are under way within USAID and the Government of India, the project

                                                                                                 2
    lackeed a transitio
                      on/sustainabbility plan fo
                                               or family pla
                                                           anning activvities agreed
                                                                                   d to by the state
    socieety in Uttar Pradesh, poosing a risk that USAID may lose in   nfluence oveer how the $40.1
    millio
         on in accumu ulated saving
                                  gs is spent (page 11).

Despite these proble   ems, the pro oject has maade some no   oteworthy coontributions to strengthe  ening
health sy ystems. Forr example, th  he project was successfful in helpingg build the ca apacity of ceertain
institution
          ns and healtth providers.. For instanc ce, the proje
                                                             ect trained staff at state resource ce enters
in six disstricts of Utta
                        arakhand in manageme   ent conceptss and processses, strateg   gic planning, and
managem   ment inform mation systems. According r      to stafff at one reesource cen  nter, the tra aining
helped th he center de evelop trainin
                                    ng manuals and monitorring tools. As a result, the center tra    ained
approxim mately 11,00  00 women community activists betw     ween April 2010 and March 2011. The
community activists’’ involvement in buildin    ng commun   nity awarene ess and bringing wome       en to
hospitals s for deliveryy of their ba
                                    abies contrib
                                                buted to the e increase inn the numbe   er of instituttional
deliveries s in Uttarakhhand. Beca  ause of the success of this activity in the six districts, the state
government has take    en over and expanded itt statewide.

The project has alsoo assisted the Indian Government in making primary hea       alth-care serrvices
available
        e to people in remote rural areas of Uttarakh   hand. Mobiile health va    ans like the
                                                                                              e one
pictured below, equipped with professional medical sta  aff trained byy the projecct, began offfering
medical services succh as laboraatory tests, ultrasound, x-rays, ante enatal checckups, and family
planning services. The vans repportedly provvided medical services to over 30,000 patients. The
state gov
        vernment haas also taken
                               n over this ac
                                            ctivity becau
                                                        use of its succcess.




    This mobile healtth van serves
                                 s the commu
                                           unity in Nain
                                                       nital, Uttarakh
                                                                     hand. (Photto by Office of
        ector Genera
    Inspe          al, February 2011)

Additiona
        ally, the project has rais
                                 sed the demand for and increased awareness and use of family
planning and reprodu uctive servic
                                 ces and prod
                                            ducts by pro
                                                       oviding acce
                                                                  ess to moderrn contracep
                                                                                         ptives

                                                                                                          3
in rural villages of less than 2,000 people in the state of Uttar Pradesh. For example, in Uttar
Pradesh, the number of condom sales reportedly increased from 132 million pieces in 2006 to
259 million in 2010. Also, sales of oral contraceptive pills in rural Uttar Pradesh increased from
2.69 million cycles in 2006 to 6.96 million cycles in 2010.

To help USAID/India improve the efficiency and effectiveness of IFPS III, this report
recommends that USAID/India:

1. 	 Determine which of the outstanding benchmarks can reasonably be achieved in the time left
     in the project, and adjust timelines or cancel the benchmarks and deobligate and reprogram
     associated funds (page 7).

2. 	 Determine the feasibility of continuing the voucher scheme activity in Uttarakhand given that
     the host government is implementing a similar program. If not feasible, deobligate and
     reprogram the $208,150 associated with the activity (page 7).

3. 	 Review obligations and needs for IFPS III and deobligate any unneeded funds (page 9).

4. 	 Define procedures to improve USAID/India’s valuation of project benchmarks (page 11).

5. 	 Deduct benchmark valuation errors totaling $73,860 identified in the audit report from future
     performance-based disbursements (page 11).

6. 	 Establish a transition/sustainability plan for family planning activities that includes spending
     of the $40.1 million on activities consistent with original project purposes (page 13).

Detailed findings follow. Our evaluation of management comments is on page 14. The audit
scope and methodology section is in Appendix I, and management comments appear in
Appendix II.




                                                                                                   4
AUDIT FINDINGS 

Project Lagged Behind in
Achieving Benchmark Activities

Under the performance-based disbursement mechanism, USAID/India pays the Indian
Government for achieving verifiable performance indicators called benchmarks. To establish
benchmarks, USAID/India, the Indian Government and the state government discussed the
project’s objectives, the needs of each state, and the activities required to fulfill those objectives.
Based on those discussions, the parties established desired benchmarks, which outline the
activities to be achieved, verification documents required, due dates for achieving the activities,
and the value for achieving each benchmark. The value is the dollar amount that USAID/India
will pay the Indian Government on achieving the benchmark. Disbursements are made only
after 100 percent achievement of the benchmark. Once USAID verifies that the benchmark has
been achieved, the funds are released to the state society through the Indian Government.

For example, on October 25, 2010, USAID/India, the Indian Government, and the state
government of Uttar Pradesh agreed to establish a benchmark to strengthen eight new
divisional training centers in that state to enable the centers to conduct clinical family planning
and training activities. To meet this objective, the state society was to identify and assess eight
training sites, disburse funds to the sites, and at the end have at least seven centers ready to
conduct training. To verify that these activities were accomplished, the mission required that the
state society submit certification supported by an assessment report showing that eight training
sites were identified and assessed. Additionally, the state society was to provide a funds
release letter demonstrating that funds were actually disbursed to the training sites and a
certification supported by certificates from district women’s hospitals showing that the centers
were functional. This benchmark was to be achieved by March 15, 2011, and was valued at
$288,530.

As of March 31, 2011, the mission and the Indian Government had agreed on 186 such
benchmarks for IFPS III, totaling approximately $11.5 million. Of these, 155 were expected to
be completed by March 31, 2011. However, as of March 31, 2011, only 43 (or 28 percent) of
these benchmarks had been achieved, with the remainder cancelled or not achieved (Table 2).

           Table 2. Status of Benchmarks as of March 31, 2011, by State Society

            State Society      Established    Achieved       Cancelled      Not Achieved

           Jharkhand                39              4             16               19

           Uttarakhand              24             18              2                 4

           Uttar Pradesh            92             21             45                26

              Total                155             43             63               49




                                                                                                     5
Benchmarks were not achieved primarily because the mission did not hold the state societies to
due dates. If the state society could not achieve a benchmark by the established due dates, it
asked USAID/India for an extension. The mission frequently granted such extensions based on
the state society’s justification. However, after it was determined that the state society could not
achieve a benchmark, even after repeated extensions, USAID/India eventually cancelled and
dropped the benchmark.

For example, on March 9, 2010, USAID/India cancelled 39 benchmarks totaling $1.5 million in
Uttar Pradesh because the state society did not achieve them despite repeated extensions.
The benchmarks were originally to be completed by August 31, 2009; however, the state society
had requested and received three extensions. According to the state society, it could not
achieve the benchmarks by the established dates because the nongovernmental organizations
(NGOs) selected to implement the activities were busy carrying out activities under other
programs.

Again, on April 29, 2010, USAID/India cancelled four benchmarks totaling $125,264 in Uttar
Pradesh because the state society had not achieved them. The earliest original due date for
completion of the activities under the benchmarks was February 28, 2009. However, almost 14
months later, the state society still had not completed the activities despite repeated extensions.
The state society gave the same reason—i.e., the unavailability of the selected NGOs—for not
completing the benchmarks on time, and USAID/India finally cancelled the benchmarks
because they were delayed substantially.

In the state of Jharkhand on June 7, 2010, USAID/India cancelled eight more benchmarks
totaling $511,623 because, despite repeated requests, the state society could not achieve them.
According to the mission, the activities were behind because Jharkhand’s state government was
unstable. Nevertheless, the mission kept extending the deadlines. The benchmarks were to be
completed on September 25, 2009. Finally, the mission cancelled the benchmarks 9 months
later.

Another reason benchmarks were not achieved is that several benchmark activities had to
compete with a newly established host-government program. For example, one benchmark,
valued at $208,150, was to increase the use of reproductive health services by poor family
members through private service providers, an initiative known as the voucher scheme activity.
Originally, the benchmark was to be achieved by March 31, 2010, but had not been achieved 12
months later. The mission granted several extensions, but the state society complained that the
benchmark targets were too high and that, given the similarity of a host-government health
insurance program, this target could not be attained. Recently, the host government started a
medical program targeting poor families in which poor families could avail themselves of
medical services at government hospitals at a nominal cost. Mission officials also stated that
many of the poor families and private providers preferred the host-government program
because it offered a better package than the voucher scheme activity offered by IFPS III. In
fact, the state society asked the Indian Government to revise the costs associated with the IFPS
voucher scheme so that it could be more attractive to the targeted community, but the Indian
Government rejected the request.

The examples presented above demonstrate that the mission did not hold the state societies to
due dates and allowed repeated extensions for completion of activities. In one instance, the
mission extended the benchmark deadline for 12 to 14 months, substantially prolonging the time
for completion. The repeated extensions suggest that original time frames were not set


                                                                                                  6
appropriately, or that they were unrealistic or unachievable with available resources. As a
result, the project was behind in achieving its activities and meeting its overall goals.

According to the mission, there were other reasons why benchmarks were not achieved within
established time frames. One of the main reasons in their view was that the implementation
and management capacity of the state societies established under the IFPS project had
weakened over time because of turnover in senior-level positions. Furthermore, in some cases,
the state societies’ authorizing committees were slow in approving activities or did not approve
the activities at all. While these may be contributing factors, USAID/India is responsible for
holding the state societies to agreed-upon due dates and ensuring that benchmark activities are
achieved within those time frames.

IFPS III will end on March 31, 2012. The mission still plans to establish further benchmarks, but
at the pace the project is currently moving, it is unlikely that the mission will be able to realize
these plans. Of the $70.2 million originally authorized for IFPS III, $24 million was budgeted for
technical assistance, and $46.2 million (approximately 66 percent) was budgeted for
performance-based disbursements to achieve such benchmarks. As of March 31, 2011, USAID
had obligated $11.9 million and had expended only $5.5 million under this disbursement
mechanism. In order for USAID/India to achieve its objectives fully, the mission needs to hold
the state societies accountable and exercise more discretion in granting extensions for
completion of benchmarks. Additionally, the mission needs to consider whether it is beneficial
to continue the voucher scheme program in Uttarakhand given the similarities to the host-
government program and the difficulty the state society in Uttarakhand is having in meeting
defined targets. In fact, the state society acknowledged that it was time to explore the
sustainability of the IFPS voucher scheme activity because of the competing host-government
program.

USAID guidance (Automated Directives System [ADS] 203.3.4.5) on setting performance
baselines and targets states that the targets should be ambitious but achievable given USAID
(and other donor) inputs. It further states that teams should be held accountable for achieving
their targets. Likewise, the time frames set for the state societies to reach benchmark targets
should be achievable given the state societies’ inputs in implementing project benchmarks.
Furthermore, the state societies should be held accountable for achieving the benchmarks
within the established timeframes. Therefore, we make the following recommendations.

   Recommendation 1. We recommend that USAID/India determine which of the
   outstanding benchmarks can reasonably be achieved in the time left in the project, and
   adjust timelines or cancel the benchmarks and deobligate and reprogram associated
   funds.

   Recommendation 2. We recommend that USAID/India determine the feasibility of
   continuing the voucher scheme activity in Uttarakhand, and If not feasible, deobligate
   and reprogram the $208,150 associated with the activity.

Significant Amounts of Project
Funds Remained Unused

ADS 202.3.7.1, “Financial Planning, Monitoring, and Budgeting for Results,” states that the
financial position of a program and its activities are critically important to achieving desired
results. The guidance further states that the financial position can be planned and measured by

                                                                                                  7
projecting and analyzing trends and relationships of several key sets of budget and financial
data, such as authorized program funding level; obligations, subobligations, and deobligations;
disbursements; expenditures; unliquidated obligations; and the expenditure pipeline.2
Furthermore, ADS. 202.3.8.3 states that at least once a year, the USAID mission or office must
review the status of all obligated funds and make any necessary adjustments to ensure that
these funds are used in a timely manner or are deobligated if no longer needed. Specifically, the
mission should identify obligations with (1) unneeded balances (funds remaining after all goods
and services have been delivered or completed and paid for) and (2) excessive balances. As
stated by the guidance, funds no longer needed should be deobligated, regardless of whether
the agreement is completed or active.

A significant amount of IFPS III authorized funds remained unused. First, USAID/India reduced
the amount it planned to spend on the project by $47.6 million. Second, as of March 31, 2011,
the IFPS III pipeline was $12 million, an amount unlikely to be spent before the project ends in
March 2012. Lastly, approximately $40.13 million from the project’s performance-based
disbursements to SIFPSA remained unspent, and the state society had no clear plan on how to
use these funds in the future. The first two of these issues are discussed below; the third issue,
relating to SIFPSA, is the subject of the next two findings.

Mission Decreased Funding for the Project. According to an amendment to the grant
agreement, USAID/India had planned to spend $70.2 million for implementing IFPS III.
However, as of March 31, 2011, the mission had obligated only $22.6 million (Table 1).
Because the project is due to end March 2012, the mission does not plan to spend the
remaining funds on the project. As a result, USAID/India has lost a major opportunity to make a
bigger impact, financially, on strengthening India’s health systems.

Phase III Has a Large Pipeline. As shown in Table 1, on March 31, 2011, the project’s pipeline
(the difference between funds obligated and funds spent) was approximately $12 million,
meaning that USAID/India had only 1 year to spend the remaining funds for implementing the
project. Considering that it took 2 years to spend roughly half the $22.6 million obligated,
spending the remainder in less than 1 year is an ambitious plan, especially given the state
societies’ slow rate of spending.

During the mission’s annual portfolio review in November 2010, USAID/India acknowledged that
the state societies were slow to spend project funds already obligated to them. For example, if
the state society in Uttar Pradesh maintained its spending at present levels, it would take almost
3 years for it to spend the project funds that have already been obligated to it. The state society
in Jharkhand was in an even worse situation. Spending as it did in fiscal year 2009, it would
take a staggering 287 months to spend the funds already obligated to it (Table 3).

Despite the mission’s analysis and identification of the state societies’ slowness in spending
project funds, the mission did not deobligate funds. The mission plans to deobligate funds only
if benchmarks are not met at the end of the project in March 2012. However, this is contrary to
ADS 202.3.8.3, which makes it mandatory for missions to review the status of all obligated

2
  As defined by ADS, the pipeline amount is the difference between the total amount obligated and the 

total amount expended.

3
  This figure is from the state society’s audited financial statement as of March 31, 2010. However,

according to the state society’s March 31, 2011, accounting records (unaudited), this amount has 

decreased to $35.9 million because the society spent some of the funds implementing family planning 

activities. Nevertheless, we have used the audited figure of $40.1 million throughout the report. 


                                                                                                   8
funds and make any necessary adjustments to ensure that funds are used in a timely manner or
are deobligated if no longer needed. Furthermore, according to ADS 202.3.7.4, in general
current pipelines and new obligations should be adequate to finance 12 to 24 months of planned
expenditures. Two of the three state societies’ current pipelines greatly exceed 24 months’ worth
of planned expenditures.

           Table 3. Time Needed by State Societies to Spend Pipeline Amounts
                               as of September 30, 2010

                 State                  State Society                    Months

           Uttar Pradesh      SIFPSA                                         35
           Uttarakhand        Uttarakhand State Health Society               23

           Jharkhand          Jharkhand Health Society                      287



According to mission officials, they did not deobligate any funds because the grant agreement is
between USAID/India and the Indian Government, and both would have to agree to modify the
terms of the agreement. The mission believes that deobligating the funds while the agreement
is ongoing would strain its relationship with the Indian Government. Additionally, despite the
project’s current financial position, the mission says that it plans to spend the $12 million in
pipeline funding by the end of the project in March 2012. Regarding the state society in
Jharkhand, the mission is not planning to approve any more benchmarks since benchmark
activities are already substantially delayed. According to the mission, the activities in Jharkhand
are behind because of the constant changes in leadership and the unstable government. Given
these reasons, coupled with the state society’s current pipeline of 287 months, it is highly
unlikely that funds in Jharkhand will be expended in the time remaining in the project. To
address these issues, we make the following recommendation.

   Recommendation 3. We recommend that USAID/India review its obligations and
   needs for Phase III of the Innovations in Family Planning Services Project and
   deobligate any unneeded funds.

With regard to the $40.1 million in savings accumulated by the state society in Uttar Pradesh,
these funds were primarily accumulated because of benchmarks that were overvalued. This
issue is discussed in the next two findings, along with a recommendation for establishing a plan
to spend those funds on family planning-related activities.

Methodology Used to Value
Benchmarks Lacked Accuracy

ADS 202.3.7, “Managing USAID Program Resources and Requesting Funds,” states that
USAID missions are responsible for managing the resources made available to them so that
planned outputs and results are achieved in a cost-effective and timely manner. However, the
audit identified a number of errors in the mission’s valuation of benchmarks, which led to
overvaluing these benchmarks. Additionally, the benchmark valuations included management
fees that were not applied consistently, again leading in some cases to overvaluation. As a


                                                                                                 9
result, activities may not have been achieved in a cost-effective manner, contributing to the
$40.1 million in savings accumulated by the state society in Uttar Pradesh.

To value benchmarks, USAID/India determined the activities that were required and reviewed
the history of similar activities, average costs, and other background information to estimate
how much it would cost to achieve each benchmark. The mission also reviewed budget
estimates for the benchmarks prepared by the state societies. The mission documented its
valuation of the benchmarks on detailed costing sheets. However, the audit found that because
some costing sheets contained errors, benchmark valuations were not always supported. For
example, a benchmark for training community workers in Uttarakhand was miscalculated.
Instead of totaling the costs for only that particular benchmark, the mission inadvertently
included the costs of two other benchmarks, increasing the value of the benchmark from
$52,800 to $126,660—essentially overvaluing the benchmark by $73,860.

The audit also identified an issue involving management fees associated with the benchmarks.
For each benchmark valuation, the mission adds a management fee, which varies from 10 to 18
percent of the benchmark cost, once all the costs for the activities under the benchmarks are
estimated. Hence, the final value of the benchmark is the total estimated cost of the activities
plus the management fee. According to the mission, management fees cover the state society’s
estimated operational costs associated with the benchmark, such as related salaries and
allowances, transportation, and maintenance of equipment.

We noted that USAID/India inexplicably increased the management fee from an approved level
of 12 percent to 18 percent for the state society in Uttar Pradesh. The state society in Uttar
Pradesh speculated that the management fee was increased because of a presumed increase
in operating expenses. Nevertheless, neither party could provide a definitive answer or
documentation to support the justification for the increase.

During the initial phases of the project, from 1992 to 2004, mission officials acknowledged that
they did not have a good system for determining the cost or value for each benchmark.
Additionally, at that time, the mission purposely added to the benchmarks to include a financial
incentive or buffer to help the state society in Uttar Pradesh establish and carry out its
operations. However, over the years and with more experience, officials claim that their method
of valuing the benchmarks has improved but is not exact. Furthermore, USAID/India officials
stated that they consulted with the state society on the valuation of benchmarks, particularly the
ones in Uttarakhand and Jharkhand. However, since the state society in Uttar Pradesh had
more experience in valuing the benchmarks by itself, the mission placed more reliance on the
state society’s estimates. This situation has led to less scrutiny and less independent
verification and analysis by the mission of the value of the benchmarks for this state society.

Regarding the management fee, as stated previously, the state society in Uttar Pradesh had
accumulated a substantial amount of unspent funds over the years from implementing IFPS
activities, and as of March 31, 2011, these funds totaled approximately $40.1 million (including
interest earned). The state society could have used these savings to cover its operating costs,
and USAID/India could presumably have eliminated management fees. According to the state
society’s financial statements, for 2009–2010, the management fees for implementing IFPS III
were $1.4 million.       Although the mission had discussed reducing the state society’s
management fees and asking the organization to use the money from its savings to cover the
fees, the mission had yet to act on this.



                                                                                               10
According to the IFPS grant agreement, any “earnings” on grant funds disbursed by USAID to
the grantee under the agreement prior to the authorized use of such funds for the project must
be returned to USAID in U.S. dollars by the grantee. However, the mission’s regional legal
advisor and other mission officials have stated that this provision does not apply to
performance-based disbursements. They noted that the performance-based disbursement
mechanism is similar to a fixed-price contract (in which the price is determined and agreed to in
advance), and if the contractor gets the work done below the agreed-upon cost, the contractor
retains the excess funds. Likewise, if the contractor pays more to get the work done, the
mission is not obligated to pay more than what it agreed to. In short, the mission believes that
from a legal standpoint the excess funds belong to the Indian Government. Nevertheless, the
Office of Inspector General believes (as discussed in the next finding) that it would be desirable
for the parties to the grant agreement to establish a plan for spending these excess funds on
family planning-related activities.

Before the project ends, it is imperative that USAID/India make improvements in its procedures
to value project benchmarks, correct the error identified in a benchmark valuation, and establish
agreed-upon percentages for management fees to be charged. Therefore, we make the
following recommendations.

   Recommendation 4. We recommend that USAID/India define, in writing, procedures to
   improve USAID/India’s valuation of benchmarks in Phase III of the Innovations in Family
   Planning Services Project. Procedures should include: (1) reviewing state society
   estimates for errors, (2) verifying that extraneous management fees are not included in
   the benchmark valuations, and (3) establishing agreed-upon percentages for
   management fees, along with a justification for the established percentages.

   Recommendation 5.       We recommend that USAID/India deduct the benchmark
   valuation error of $73,860 identified in this finding from future performance-based
   disbursements.

Project Lacked
Transition/Sustainability Plan for
Family Planning Activities
One of the key goals under IFPS III was to strengthen SIFPSA into a fully sustainable technical
assistance agency by the end of the project. Also, SIFPSA was to develop and implement a
capacity-building and transition/sustainability plan that would help it become independent of
USAID support. However, as of March 31, 2011, such a plan had not been developed.
Moreover, since the project began in 1992, SIFPSA had accumulated approximately $40.1
million from excess funds remaining after completion of benchmark activities, including interest
earned, and had no clear plan to manage or use these funds. We estimate that since the
project began USAID has provided a total of $138.8 million in performance-based
disbursements. However, with less than a year remaining in IFPS III and without immediate
intervention, USAID/India may lose its influence over the future of SIFPSA and the use of these
accumulated savings.

SIFPSA is a quasi-governmental agency created in 1994 to oversee the implementation of IFPS
activities in Uttar Pradesh. According to the action plan—which outlines expected results,
outputs, and outcomes of IFPS III for Uttar Pradesh—a capacity-building and
transition/sustainability plan for SIFPSA was to be developed and implemented to ensure a

                                                                                               11
smooth transition from USAID support to independence. The end goal was to transform
SIFPSA into a highly qualified, self-sustaining institution providing technical assistance to the
state on family planning and reproductive health issues.

According to both USAID and SIFPSA officials, SIFPSA was to have prepared the plan.
However, SIFPSA had not done so, primarily because SIFPSA’s continued existence is in
question, as discussed below. Although USAID/India has had discussions with government
officials regarding SIFPSA’s future, no specific plan for SIFPSA’s future or the use of the
accumulated savings has been developed.

As discussed earlier in this report, SIFPSA had accumulated approximately $40.1 million as of
March 31, 2010, in excess funds remaining after completion of benchmarks, from the
overvaluation of the benchmarks and, as discussed below, from interest earnings. The mission
indicated that, from the initial phases of the project through 2004, it did not have a good system
for determining the cost or value for each benchmark, resulting in the overvaluation of
benchmarks. Also as discussed earlier, the mission purposely added to the benchmarks to
include a financial incentive or buffer to help SIFPSA establish and carry out its operations. In
addition, SIFPSA often completed the benchmarks at a lower cost than that established in the
benchmark valuation. The reason for this, SIFPSA officials stated, was that they took an
economical approach to implementation, which may have led to some of the savings.
Furthermore, SIFPSA has also earned a sizeable amount of interest from depositing the annual
savings from IFPS over the years into interest-bearing accounts: over the past 5 years alone,
SIFPSA has earned approximately $15 million on the savings from IFPS III (Table 5).
According to SIFPSA officials, they shop around for the best interest rate available and earn
between 9 and 10 percent interest per year.

         Table 5. Amount of Interest Earned by the State Society in Uttar Pradesh
                              on Project Funds, 2005–2010

                                                   Interest Earned
                                 Year
                                                      ($ million)

                              2009–2010                   4.0
                              2008–2009                   4.4
                              2007–2008                   3.5
                              2006–2007                   1.9
                              2005–2006                   1.2
                                 Total                   15.0

However, according to mission officials, including the Regional Legal Advisor, since SIFPSA is
funded through performance-based disbursements for activities achieved, SIFPSA is not
required to return any interest income to USAID. They also concluded that SIFPSA’s
accumulated savings no longer belong to the U.S. Government. However, if SIFPSA ceases to
exist, the $40.1 million in accumulated savings from the project could be absorbed by the Indian
State Government Treasury and not be used for family planning-related activities. Therefore, it
is imperative that USAID/India remains engaged with SIFPSA and the Indian Government to
influence the use of the funds.

Since SIFPSA is a quasi-governmental agency, its future—whether it will exist after the project
ends and in what form—is in the hands of the Indian state government. However, with the
emergence of NRHM and its enormous funding, many SIFPSA officials believe that SIFPSA’s

                                                                                               12
role has become marginalized, and USAID funding for implementing family planning activities in
the state is seen as meager in comparison to the Indian Government’s NRHM funding.
However, NRHM is suffering from corruption scandals and an inadequate management system.
Whatever the future may hold regarding the continued existence of SIFPSA, USAID/India and
the Government of India could establish a plan for ensuring that the $40.1 million in savings
from the IFPS program would be secured and spent for family planning-related activities.

Currently, the following options are being considered for SIFPSA’s future:

1.   SIFPSA could become a more independent entity without a government official heading it.
2.   SIFPSA could become a state health resource center under the state’s NRHM program.
3.   SIFPSA could merge with Uttar Pradesh’s state NRHM program.
4.   SIFPSA could continue as it now exists as a quasi-governmental agency.

A working group on SIFPSA’s future, of which USAID is a member, has been convened for
which discussions related to SIFPSA’s future could be expedited. The mission is currently
discussing a transition plan for SIFPSA, but given that the IFPS project ends in March 2012 and
considering the issues facing NRHM, we believe that the $40.1 million in savings from the IFPS
project is more likely to be spent on family planning activities as part of a transition/sustainability
plan for such activities established by the parties to the grant agreement. Therefore, we make
the following recommendation.

     Recommendation 6. While we accept the mission’s determination that the $40.1 million
     in Agency savings belongs to the Government of India, we nevertheless recommend that
     USAID/India, the Government of India, and the State Innovations in Family Planning
     Services Agency establish a transition/sustainability plan for family planning activities
     that includes spending the $40.1 million on such activities.




                                                                                                    13
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report and
determined that final action has been achieved on Recommendation 5, and management
decisions have been reached on Recommendations 1, 2, 3, 4, and 6. For these five
recommendations with only management decisions, we anticipate that final action will be taken
by March 31, 2012.

For Recommendation 1, the mission stated that it reviewed all the pending benchmarks and
determined that they will be achieved prior to the end of the project (i.e., the remaining 49
benchmarks would be achieved by March 31, 2012). As a result, the mission requested closure
of the recommendation. Although we determined that a management decision has been
reached on this recommendation, we cannot determine that final action has been achieved
because of the lack of supporting documentation. Final action can be achieved only upon the
submission of an analysis which lists each benchmark and why the mission believes it can be
achieved or the actions to be taken if it cannot be achieved.

For Recommendation 2, the mission stated that the benchmarked activity had been achieved
and provided a letter dated July 21, 2011, from UKHFWS attesting to the activity’s completion.
However, under the mission’s own review procedures, members of the project implementation
committee must review documentation submitted by the state society to verify completion.
Therefore, we determined that only a management decision has been reached. Final action will
be achieved after the committee documents approval of the activity’s completion or the
committee determines that the activity was not accomplished and that the funds should be
deobligated and reprogrammed.

For Recommendation 3, the mission stated in Attachment 1 to its summary comments to the
audit report that measuring the pipeline in months is not appropriate under a performance-
based disbursement mechanism. This is because activities are planned almost a year in
advance, and disbursements or accruals are made only after results have been achieved.
Although the mission did not provide an alternative mechanism by which to measure the pace of
fund expenditures, the mission did prepare an updated pipeline and expenditure plan through
March 2012. This plan included a possible deobligation of $2 million in project funds, which the
mission stated would be retained to address SIFPSA’s transition plan. With SIFPSA’s
accumulated savings totaling $40.1 million, and interest of over $4 million earned annually, it is
unclear why the mission would feel the need to retain $2 million for a SIFPSA transition plan.
However, the mission stated that any balance of funds remaining near the project completion
date would be deobligated, as required, before project closeout. As a result, we determined that
a management decision has been reached on this recommendation, and final action will be
achieved when any remaining funds are deobligated before project closeout.

For Recommendation 4, the mission stated that it planned to submit documentation defining
procedures to improve valuation of benchmarks for IFPS III. We determined that a
management decision has been reached on this recommendation. Final action will be achieved
when such documentation is provided.



                                                                                               14
For Recommendation 5, the mission concluded that a calculation error of $73,860 in benchmark
valuation occurred, and therefore de-sub-obligated the amount from Benchmark 37. As a result,
we determined that final action has been achieved on this recommendation.

For Recommendation 6, the mission noted that actions are under way to establish a transition
plan prior to March 31, 2012, and that such a plan would include joint programming of the
savings and interest funds held by SIFPSA. The mission also noted in Attachment 1 of its
summary comments on the audit report that a large portion of SIFPSA savings, approximately
$15 million, was acquired under IFPS I from 1992 to 2004, and that some of these savings
resulted from currency fluctuations between the Indian rupee and the U.S. dollar. Regardless of
the time frame or additional means by which these savings were accumulated, SIFPSA now has
$40.1 million in savings, which must be carefully monitored to ensure that these resources are
used for family planning-related activities. Therefore, the mission’s work to establish such a
transition plan is essential. As a result, we determined that a management decision has been
reached on this recommendation. Final action will be achieved upon the formal establishment
of such a plan.

In addition to the responses above, the mission cited what it believed to be a number of
inaccuracies and misleading statements in the draft report. These comments were included in
Attachment 1 to their summary comments. We made several changes to the report in response
to mission concerns. However, in some cases, we held a different perspective than the mission
and did not alter the report in response to mission comments as discussed below.

Specifically the mission stated that the objectives of IFPS III were not accurately summarized.
According to the mission, the project’s “priority focus for the final three years of IFPS” was to
strengthen health systems for delivery of quality family planning and reproductive health
services. Project officials are concentrating on demonstrating the effectiveness of innovative
models and processes so that states will adopt them at the end of the project. We believe that
the summary of the overall IFPS project presented in the report, taken directly from the bilateral
agreement, conveys a similar idea. Furthermore, the objective of the audit was to determine
whether USAID/India’s IFPS III was achieving its main goal of strengthening health systems to
allow for the delivery of quality family planning and reproductive health services, a goal derived
from the bilateral agreement itself.

The mission also objected to the report’s labeling of benchmarks as “not achieved,” stating that
this misrepresents the status of benchmarks at the time of the audit. The mission believes the
phrase “in progress” is more accurate. We do not consider the phrase “not achieved” a
misrepresentation of benchmark status and believe the report’s first finding adequately
addresses this concern. As noted in the finding, the benchmarks were labeled as not achieved
because they were expected to be completed by March 31, 2011, but were not achieved by that
date.

The mission also felt the audit’s second finding regarding significant amounts of project funds
remaining unused was inaccurate and misleading. The mission believes that a more accurate
reflection would be stating that significant amounts of authorized funds for IFPS will not be
obligated due to changes in India’s health programs resulting in the mission’s prudent decision
not to obligate the full level of authorized funds. However, the report does mention the
decrease in authorized funding for the project, although focusing on the $12 million remaining in
the pipeline as of March 31, 2011.



                                                                                               15
The mission cited as inaccurate the report’s statement that several benchmarks were not
achieved because they had to compete with a newly established host-government program. As
for the $208,150 benchmark discussed specifically in the report, the mission indicated that the
benchmark had subsequently been achieved and in its view was not directly competing with any
other government scheme. However, as documented by the mission’s own trip reports, patients
were clearly choosing the newly established host-government program over the similar voucher
program funded through IFPS III.

The mission disagreed with the report’s statement that “benchmarks were not achieved primarily
because the mission did not hold the state societies to due dates.” The mission stated that this
was inaccurate, and that the complex environment in which IFPS works was the primary reason
that benchmarks were not achieved. While the auditors acknowledge the complexities involved
in all development work, specific completion dates were established and agreed to by all parties
involved, and these dates were routinely not met for various reasons, as discussed in the report.

The mission also disagreed with the audit report’s conclusion that the project had made little
progress in that the problems cited referred “primarily . . . to administrative aspects of the
program rather than programmatic performance.” While the audit report did recognize
noteworthy contributions made by the project, it was not clear that IFPS III had achieved the
progress envisioned at the time the project was authorized. With the reduction in the size of the
project by $47.6 million, the cancellation of numerous benchmarks and the delay in the
achievement of others, and the lack of certainty regarding the future of the largest government
implementing agency, we could not conclude, as the mission did, that “considerable progress”
had been made.




                                                                                              16
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards.4 Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe the evidence obtained provides that
reasonable basis. The purpose of this audit was to determine whether USAID/India’s IFPS III
was achieving its main goal of strengthening health systems to allow for the delivery of quality
family planning and reproductive health services.

While the overall IFPS project started in 1992, this audit focused on results reported under
Phase III, from April 1, 2009, through March 31, 2011. We performed this audit at USAID/India
and at the office of the technical assistance contractor, Constella Futures International, LLC, in
New Delhi from February 23 through March 9, 2011, and again from March 28 through April 14,
2011. We also conducted site visits throughout the state of Uttarakhand from February 28 to
March 4, 2011. We met with officials from the UKHFWS, district governments, NGOs, and
private hospitals implementing IFPS III activities. We also conducted site visits in the state of
Uttar Pradesh from April 4-7, 2011. We met with officials from SIFPSA, visited two hospitals
participating in a franchising scheme in Kanpur, and viewed social marketing activities taking
place in the nearby villages.

As part of the audit, we assessed the significant internal controls used by USAID/India to
monitor project activities. The assessment included controls related to whether the mission had
(1) adequately valued activities for proposed benchmarks, (2) conducted and documented site
visits to evaluate progress and monitor quality, (3) reviewed and validated documentation for
completed benchmarks, and (4) reviewed progress reports submitted by the technical
assistance contractor. We also reviewed the mission’s Federal Managers’ Financial Integrity
Act report for fiscal year 2010, and prior audit reports, for any issues related to the audit
objective. Finally, we reviewed internal controls related to the state societies’ activities, which
included field visit reports, log books, and other financial and project reports.

As of March 31, 2011, the mission had obligated $22.6 million and expended $10.6 million for
IFPS III since April 2009.

Methodology
To answer the audit objective, we first identified the project’s main goal and significant project
risks. We met with key personnel at USAID/India, SIFPSA (the implementing state society in
Uttar Pradesh), UKHFWS (the implementing state society in Uttarakhand) and Constella
Futures International, LLC (the entity providing technical assistance to the project).

To determine whether IFPS III activities funded through performance-based disbursements
were being achieved, we judgmentally selected 26 benchmarks with a total value of $5,297,873

4
    GAO-07-731G (July 2007 Revision).

                                                                                                17
                                                                                      Appendix I


to test. These benchmarks were selected from the IFPS III benchmarks approved since April 1,
2009, both completed and ongoing, that pertained to differing activities across the states of
Uttarakhand, Uttar Pradesh, and Jharkhand. We then reviewed mission documentation
pertaining to the original approval and costing of these selected benchmarks, the mission’s
monitoring of activities through trip reports and meeting minutes, and other documents
pertaining to verifying completion and payment approval.

We also interviewed individuals and reviewed supporting documentation at various
organizations in Uttarakhand responsible for implementing IFPS activities. We met with
UKHFWS officials, and the Chief Medical Officers of the districts of Haridwar and Nainital. We
also met with officials from various NGOs and a private hospital implementing benchmarked
activities. The NGOs included Shri Bhuvneshwari Mahila Ashram, working on adolescent
reproductive health in Dehra Dun District, and the Birla Institute of Scientific Research,
operating a mobile health van in the Nainital District. We also met with a doctor working at the
privately owned Sanjeevan Hospital participating in voucher scheme activities in the city of
Roorkee.

In Uttar Pradesh, we interviewed SIFPSA officials and reviewed their file documentation. We
also viewed social marketing activities organized by a subcontractor taking place in the villages
of Bijimau and Mal. These activities included a community meeting in Bijimau, attended by local
women to learn about the advantages of family planning, and the sale of condoms and oral
contraceptive pills in two retail stores. In the village of Mal, we observed a performance by a
local theater group that told the story of a couple, interwoven with the message of family
planning benefits. We also interviewed officials at two private hospitals in the Kanpur District
participating in the MerryGold franchising scheme being implemented by Hindustan Latex
Family Planning Promotion Trust.

To determine whether the technical assistance aspect of IFPS III was meeting its intended
goals, we interviewed contractor personnel. Interviewees included employees at the Delhi
headquarters and the regional offices of Dehra Dun and Lucknow. In Delhi, we reviewed files
pertaining to quarterly indicator and activity progress reports, subcontracting documents, and
financial records.




                                                                                              18
                                                                                           Appen
                                                                                               ndix II



MA
 ANAG
    GEMENT
         T COM
             MME
               ENTS
                  S



MEMOR
    RANDUM

TO:                  Regio
                         onal Inspecto
                                     or General/M
                                                Manila, Brucee N. Boyer

FROM:                USAID/India Actting Mission Director, Frrank Young /s/

SUBJEC
     CT:             USAID/India Com
                                   mments on Audit Reportt No. 5-386-11-XXX-P

DATE:                Augusst 1, 2011

As requeested in yourr memorandu um of June 23, 2011, this memoranddum transmitts
USAID/IIndia’s writteen commentts on the draft Audit Repport No. 5-3886-11-XXX--P. Comments
are proviided in two formats: a sig
                                  gned (scanned) copy of t his memoraandum and an electronicc
version inn Microsoft Word with /s/ signifying
                                             g my signatuure.

Although h your memo   o indicates th
                                    hat these com
                                                mments willl be includedd as an appenndix to the
report, pllease note th
                      hat we are alsso providingg a version o f the draft reeport with ouur recommennded
edits in trracked chang ges mode. The same comments, as well as a sett of overarchhing commennts to
the entiree report, are included bellow; howeveer, in order t o facilitate changes thatt your team may
choose too accept baseed on our proposed editss, we thoughht it most useeful to also provide an eddited
“track chhanges” version of the do  ocument.

A summaary of the Mission’s resp   ponse to the recommenddations is notted below. For all
recommeendations, we have proviided either documentatioon indicatingg that correcctive action has
been takeen, with a request that th
                                  he recommen  ndation be cllosed, or a proposal for corrective acction,
as you reequested, inccluding a targ
                                   get date for completion.

You will note that wee have also provided revvised amountts for those cited in recoommendationns 2
and 5, an
        nd note our clarifying point regarding
                                             g the amounnt cited in reccommendatiion 6.

We appreeciate the tho
                     oughtful revview and hop
                                            pe our comm ments will bee taken as inttended, to ennsure
the most accurate repport given th
                                 he complexities involvedd in this impoortant bilaterral program..


U.S. Agency for International Development
American Emmbassy                                     Tel: 91-11-24198000
Chanakyapuri                                                                  54
                                                      Fax: 91-11-24198612 / 845
New Delhi 11
           10 021                                     www.usaiid.gov/in



                                                                                                     19
                                                                                     Appendix II



Summary of USAID/India Mission Response to Recommendations

   Recommendation 1: We recommend that USAID/India determine which of the
   outstanding benchmarks can reasonably be achieved in the time left in the program, and
   adjust timelines or cancel the benchmarks and deobligate and reprogram associated
   funds.

The Mission recommends that this recommendation be closed. The Mission has reviewed all the
pending benchmarks and determined that, based on their current status, to the best of our
knowledge they will all be achieved prior to the end of IFPS on March 31, 2012.

   Recommendation 2: We recommend that USAID/India determine the feasibility of
   continuing the voucher scheme activity in Uttarakhand, and If not feasible, deobligate
   and reprogram the $208,150 associated with the activity.

The Mission proposes that this recommendation be closed, since this benchmark has been
achieved. Documentation demonstrating achievement of the benchmark is included as
Attachment 2.

   Recommendation 3: We recommend that USAID/India review its obligations and needs
   for the Innovations in Family Planning Services III program and de-obligate any
   unneeded funds.

The Mission proposes that this recommendation be closed. The Mission has reviewed the
validity of existing obligations, in accordance with ADS 202.3.8.3, and determined that no de-
obligation is currently required. Please see the updated pipeline analysis and plan for
expenditure in Attachment 5. The projected balance of un-subobligated funds, approximately
$2.0 million, is being retained as a contingency to address the report’s Recommendation 6, to
develop a transition plan for SIFPSA. If any balance of funds remains near to the project
completion date, it will be de-obligated, as required, before project closeout.

   Recommendation 4: We recommend that USAID/India define, in writing, procedures to
   improve USAID/India’s valuation of benchmarks in the Innovations in Family Planning
   Services Program. Procedures should include: (1) reviewing state society estimates for
   errors, (2) verifying that extraneous management fees are not included in the benchmark
   valuations, and (3) establishing agreed-upon percentages for management fees, along
   with a justification for the established percentages.

The Mission agrees and will submit documentation to closeout this recommendation on issuance
of the report.

   Recommendation 5: We recommend that USAID/India deduct benchmark valuation
   errors totaling $100,956 identified in this finding from future performance-based
   disbursements.



                                                                                                 20
                                                                                      Appendix II


The Mission recommends that this recommendation be closed. The errors actually totaled
$73,860 and have been resolved (see further explanation in Attachment 1, and documentation
included in Attachment 3). Please note that the text on page 4 of the report references page 12,
but the relevant discussion is on page 10 of the original draft report.

   Recommendation 6: We recommend that USAID/India, the Government of India and the
   State Innovations in Family Planning Services Agency establish a
   transition/sustainability plan for the Agency. While we recognize that the $40.1 million
   in Agency savings belongs to the Government of India, the plan should nevertheless
   include guarantees that those funds be spent as intended on family planning activities.

The Mission accepts the recommendation and notes that related actions have been underway
since October 2010. The Mission and SIFPSA are currently working on a transition plan to
be agreed upon with relevant host government entities, including joint programming of the
savings and interest to ensure they are used in accordance with original program purposes.
Actions will be completed prior to March 31, 2012.




List of Attachments:

   1.   USAID/India Comments on Audit Report No. 5-386-11-XXX-P
   2.   Documentation on achievement of Uttarakhand Benchmarks 39 and 50
   3.   Project Implementation Letter (PIL) #108 to correct calculation error
   4.   Illustrative Achievements of IFPS
   5.   IFPS pipeline and expenditure plan until March 2012
   6.   Articles on political upheavals in Jharkhand
   7.   Minutes of meetings related to SIFPSA transition plan
   8.   Audit Report with tracked changes recommended per Mission comments




                                                                                               21
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
